 Audit of Potential Conflicts of Interest
  in USAID/Benin's Contracting and
Managing of USAID-Financed Activities


          Report No. 7-680-01-001-P
               March 7, 2001




             Dakar, Senegal
          UNITED STATES OF AMERICA AGENCY FOR INTERNATIONAL DEVELOPMENT
             OFFICE OF THE REGIONAL INSPECTOR GENERAL FOR WEST AFRICA

UNITED STATES ADDRESS                                                             INTERNATIONAL ADDRESS
        RIG/DAKAR                                                                           RIG/DAKAR
AGENCY FOR INTERNATIONAL                                                          C/o AMERICAN EMBASSY
       DEVELOPMENT                                                                 B.P. 49 DAKAR - SENEGAL
WASHINGTON, D.C. 20521-2130                                                               WEST AFRICA
                                              March 7, 2001

        MEMORANDUM
        TO:             Harry Lightfoot, Director, USAID/Benin

        FROM:           Henry L. Barrett, RIG/Dakar /S/

        SUBJECT:        Audit of Potential Conflicts of Interest in USAID/Benin's Contracting and
                        Managing of USAID-Financed Activities, Report No. 7-680-01-001-P


        This attached memorandum is our report on the subject audit. We have considered your
        comments on the draft report and have included them in Appendix II. The report
        contains no recommendations.

        I appreciate the cooperation and courtesies extended to my staff during the audit.


        Background
        Under the Standards of Ethical Conduct for Employees of the Executive Branch (the
        Standards) and the criminal statute (18 U.S.C. 208), Federal employees are not
        permitted to participate personally and substantially in any particular official matter(s)
        in which they have financial interests. For a conflict to exist, it is not necessary that the
        extent of possible gain or loss be known. USAID's Automated Directives System
        (ADS 495.3) states that it is the employee's responsibility to avoid the appearance of or
        actual conflicts of interest that cast doubt on the integrity of the employee's official acts.
        Specifically, USAID employees are prohibited by criminal statute (18 U.S.C. 208 (a))
        from participating personally and substantially in an official capacity in any particular
        matter in which, to his knowledge, he or any person whose interests are imputed to him
        under the statute has a financial interest, if the particular matter will have a direct and
        predictable effect on that interest. Imputed interests are interpreted by the statute quite
        broadly and include: the employee's spouse, minor children, general partner; an
        organization entity which the employee serves as a general partner, officer or employee;
        and a person with whom the employee is negotiating for or has an arrangement
        concerning prospective employment. In addition to actual conflicts of interest,
        employees of USAID are required to take appropriate steps to avoid possible
        appearances of loss of impartiality in the performance of heir official duties.
Furthermore, the Standards state:

       an employee should not participate in a particular matter involving
       specific parties which they know is likely to affect the financial interests
       of a member of his household, or in which he knows a person with
       whom he has a covered relationship is or represents a party, if he
       determines that a reasonable person with knowledge of the relevant
       facts would question his impartiality in the matter.


Audit Objectives
This audit was conducted as an innovative test based on the results of a recently
completed RIG/Dakar joint Office of Investigations and Office of Audit investigative
effort in East Africa, which substantiated allegations that two FSNs had improperly
directed funds to companies in which they held an undisclosed personal and financial
interest. The Benin audit program was designed in consultation with an OIG
investigator to answer the following objective:

       Do USAID/Benin’s and other records reflect any potential conflicts of
       interest in the contracting or managing of USAID/Benin’s programs?

Appendix I includes a discussion of the scope and methodology for this audit.


Audit Findings
       Do USAID/Benin’s and other records reflect any potential conflicts of
       interest in the contracting or managing of USAID/Benin’s programs?

In the Mission’s and other records that we reviewed, we found no conflicts of interest.

As part of our audit we found four instances where employees were related to
individuals that were associated with contractors and/or grantees of USAID. For all
four cases we reviewed the vendor and employee files and spoke with the supervisors
of the involved personnel. We found in all four cases, that because of the scope of the
employee's job function, there were no conflicts of interest.

The Mission recognized the importance of remaining vigilant in guarding against
conflicts of interest between its employees and the roles that they served in the
Mission’s official business. Specifically, the Mission managed possible conflicts of
interest primarily through two different means: (1) providing ethics information and
training to its employees; and (2) requiring certifications from employees.




                                          2
Ethics Information and Training

We found that the Mission had provided its employees a copy of the Standards of
Ethical Conduct for Employees of the Executive Branch, which describes in detail the
various components that comprise conflicts of interest and impartiality in performing
official duties. Along with the literature describing exactly what constituted conflicts of
interest, the Mission held a training session in which the Regional Legal Advisor
explained the various nuances of conflicts of interest to the Mission’s staff.

Certifications

The area in which the Mission’s employees face the highest potential for conflicts of
interest is in the procurement function. In fulfilling its development objectives, the
Mission procures technical services from various contractors and decides to which local
entities it will award grants for development work.

AIDAR 715.305 requires that the Mission obtain certifications from non-Government
Evaluators (NGE) (i.e. non-U.S. Government employees) who serve on technical
evaluation committees related to contracts. These certifications state that the evaluator
perceives no actual or potential conflict of interest. We found that the Mission requires
NGEs as well as its own employees to sign such a certification when they participate on
technical evaluation committees for reviewing contract and grant proposals. Extending
the use of the certification beyond NGEs, to include U.S. Government employees and
grants, is a positive and proactive step that the Mission has taken to remind participants
in the procurement process of the importance of avoiding conflict of interest situations.


Management Comments and Our Evaluation
In response to our draft report, USAID/Benin provided written comments that are
included in their entirety as Appendix II. We considered these comments in preparing
the final report.

The Mission stated that it recognizes the importance of guarding against potential
conflicts of interest between employees and the roles that they serve in the Mission's
official business and that it has taken specific steps to prevent potential conflicts of
interest. The Mission thanked the RIG staff for their feedback during the audit.
Additionally, the Mission stated that collaboration between the Mission and RIG/Dakar
continues to contribute to USAID's development program in Benin.




                                           3
                                                                          Appendix I
                                                                          Page 1 of 2


                        SCOPE AND
                       METHODOLOGY


Scope
We performed this audit to identify potential conflicts of interest in USAID/Benin's
contracting and managing of USAID-financed activities. The audit was performed in
accordance with generally accepted government auditing standards and was
conducted from November 27, 2000, through December 8, 2000, at USAID/Benin.
The audit covered USAID/Benin FY 2000 disbursements of $9.6 million and
advances of $1.7 million. Of the $9.6 million disbursements, $8.9 million related to
program funds and $.7 million related to operating expense funds.


Methodology
To accomplish the audit objective we held discussions with key USAID/Benin staff,
including the Executive Officer (EXO), the Controller and the strategic objective
team leaders. We also met with individuals in the American Embassy's Regional
Security Office and Benin's Chamber of Commerce. The primary methodology
employed in our audit was comparing vendor data against Mission employee data to
disclose any situations that would point to possible employee conflicts of interest. To
facilitate this comparison, we developed employee and vendor databases using
Mission and outside sources. We then compared fields between the databases to
identify any similarities.

For the vendor database, we obtained a listing of the total FY 2000 disbursements and
advances from the Controller's office. With the help of the chief accountant, we
eliminated disbursements to U.S. based organizations, salaries, personal service
contracts, and recurring obligations such as utility companies and other obvious non-
vendor payments. From the universe of local vendors, we sorted the database
alphabetically, then we identified local vendors who received more than two
disbursements in FY 2000.

From this new database totaling 75 vendors, we selected a sample of 30 comprised of
the following vendors: (1) the ten largest dollar recipients, (2) 15 randomly selected,
and (3) five judgmentally selected.
                                                                            Appendix II
                                                                             Page 2 of 2



Using the selected USAID vendor files, we created a vendor database, including the
vendor name, principals, address, post office box number, and telephone number. We
also obtained similar data for the same vendors from the Chamber of Commerce.

In developing the employee database, we reviewed USAID employee personnel files
and extracted data, including employee name, address, post office box, telephone
number, relatives' names, relatives' post office boxes, and relatives' telephone
numbers. Based on discussions with the EXO and our review of job descriptions in
the employee personnel files, we identified and eliminated certain employees such as
janitors and drivers who would generally have a minimal role in USAID transactions
with vendors.

Finally, we compared name, telephone number and post office box fields in the two
databases for matches. We did not find it useful to use the address field because the
data we received on addresses was inconsistent. For those similarities identified
between the two databases, we performed additional audit work including interviews.

We reviewed the management controls the Mission had implemented relating to
conflicts of interest and found them to be adequate; however, due to the difficult nature
of detecting conflicts of interest we judged the audit risk to be high. Additionally,
because the area of conflict of interest is regulated, for the most part, by U.S. criminal
statutes and given that even one instance of conflict of interest could have severe
negative consequences on the Mission's ability to accomplish its development goals, we
considered all conflicts of interest to be material weaknesses.
                                                  Appendix II

               U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT




                              February 05, 2001


INFORMATION MEMORANDUM

TO:     Mr. Henry Barrett, RIG/A/Dakar

FROM:   Mr. Harry M. Lightfoot, USAID/Benin /S/

SUBJECT: Draft Audit Report Number 7-680-01-00X-P of
         Potential Conflicts of Interest in USAID/Benin's
         Contracting and Managing of USAID-Financed
         Activities

     As requested, the Mission has reviewed the RIG's
draft audit report on potential conflicts of interest in
USAID/Benin's contracting and managing of USAID-financed
activities.

     Serving as the first Mission to be audited under
the subject audit scope of work, Mission management and
staff are pleased that no conflicts of interest were
identified   in   the   contracting  and  managing   of
USAID/Benin's programs.

     USAID/Benin recognizes the importance of guarding
against   potential    conflicts    of  interest   between
employees, and the roles that they serve in the
Mission's official business.     The use of certifications
for Mission employees serving on technical evaluation
committees,   and   regular     distribution   of   ethics
information and training to employees, are two important
steps that the Mission is taking to prevent potential
conflicts of interest.

     USAID/Benin would like to take this opportunity to
thank the RIG staff for their feedback during the
subject audit.    Collaboration between the Mission and
RIG/Dakar continues to contribute to USAID's development
program in Benin.
